APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
District Court of Tulsa County, State of
Oklahoma, Amended Findings of Fact
and Conclusions of Law (November 12, 2020) ....... 10a
Stipulations
(September 25, 2020)........................................ 16a
Order of the Court of Criminal Appeals,
State of Oklahoma, Remanding for
Evidentiary Hearing (August 19, 2020) .......... 23a

App.1a
OPINION OF THE COURT OF
CRIMINAL APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SHANNON JAMES KEPLER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-1186
An Appeal from the District Court of Tulsa County
the Honorable Sharon K. Holmes, District Judge
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ROWLAND, VICE PRESIDING JUDGE:
Appellant Shannon James Kepler was tried by
jury in the District Court of Tulsa County, Case No.
CF-2014-3952, and found guilty of First Degree Manslaughter, in violation of 21 O.S.2011, § 711. The jury
assessed punishment at fifteen years imprisonment and
a fine of $10,000.00. The Honorable Sharon K. Holmes,

App.2a
District Judge, presided at Kepler’s jury trial and
sentenced him in accordance with the jury’s verdict.
Kepler raises seven issues for review. Kepler’s jurisdiction challenge, contesting the State’s jurisdiction to
prosecute him, requires relief. We address only that
claim and find Kepler’s other claims are moot.
Kepler claims the State of Oklahoma did not have
jurisdiction to prosecute him. He relies on 18 U.S.C.
§ 1153 and McGirt v. Oklahoma, 591 U.S., 140 S. Ct.
2452 (2020). On August 19, 2020, this Court remanded
this case to the District Court of Tulsa County for an
evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on two
issues: (a) Kepler’s status as an Indian; and (b) whether
the crime occurred within the boundaries of the Muscogee Creek Nation Reservation. Our Order provided that,
if the parties agreed as to what the evidence would
show with regard to the questions presented, the
parties could enter into a written stipulation setting
forth those facts, and no hearing would be necessary.
On September 25, 2020, the parties appeared before
the Honorable Tracy L. Priddy and entered a written
joint stipulation in which they agreed: (1) that Kepler
has some Indian blood; (2) that he was a registered
member of the Muscogee Creek Nation on the date of
the charged offense; (3) that the Muscogee Creek Nation
is a federally recognized tribe; and (4) that the charged
crime occurred within the Muscogee Creek Nation
Reservation. The district court accepted the parties’
stipulation.
The District Court filed its Amended Findings of
Fact and Conclusions of Law in this Court on November

App.3a
16, 2020.1 The District Court found the facts recited
above in accordance with the stipulation. The District
Court concluded that Kepler is an Indian under federal
law and that the charged crimes occurred within the
boundaries of the Muscogee Creek Nation Reservation.
The District Court’s findings and conclusions are supported by the record. The ruling in McGirt governs
this case and requires us to find the State of Oklahoma
was without jurisdiction to prosecute Kepler. Accordingly, we grant Kepler’s Proposition 1.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. The Clerk of this
Court shall SEAL the un-redacted Enrollment Verification appended to the original Findings of Fact and
Conclusions of Law filed November 16, 2020. Pursuant
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE

1 The district court granted Kepler’s motion to substitute the
exhibit of Kepler’s tribal enrollment verification appended to the
original Findings of Fact and Conclusions of Law because the
exhibit contained protected personal material. The court substituted a redacted Enrollment Verification for the un-redacted
Enrollment Verification attached to both the September 25, 2020
stipulations and the November 6, 2020 Findings of Fact and Conclusions of Law. Our record contains both the original and
amended Findings of Fact and Conclusions of Law. Because the
original Findings of Fact and Conclusions of Law contains the
un-redacted exhibit containing protected information, we, on our
own motion, order the un-redacted exhibit SEALED. Rule 2.7,
Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch.
18, App. (2021).

App.4a
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
SHARON K. HOLMES, DISTRICT JUDGE
APPEARANCES AT TRIAL AND REMAND
Richard O’Carroll
Attorney at Law
2171 N. Vancouver Ave.
Tulsa, OK 74127
Scott Troy
Attorney at Law
406 S. Boulder Ave.
Suite 405
Tulsa, OK 74103
Attorneys for Defendant
Stephen Kunzweiler
District Attorney Kevin Gray
Asst. District Attorneys
500 South Denver Suite 900
Tulsa, OK 74103
Attorneys for State
Erik Grayless
First Assistant
District Attorney of Tulsa County
500 S. Denver Ave. Suite 900
Tulsa, OK 74103
Appeared at Status Conference

App.5a
APPEARANCES ON APPEAL AND REMAND
Katrina Conrad-Legler
Appellate Defense Counsel
P.O. Box 926
Norman, OK 73070
Attorney for Appellant
Mike Hunter
Attorney General of Oklahoma
Tessa L. Henry
Jennifer Crabb
Asst. Attorney General
313 N. E. 21st Street
Oklahoma City, OK 73105
Attorneys for Appellee
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Recuse
Lumpkin, J.: Concur in Results
Lewis, J.: Concur
Hudson, J.: Specially Concur

App.6a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, U.S. 140 S.
Ct. 2452 (2020), I do so reluctantly. Upon the first
reading of the majority opinion in McGirt I initially
formed the belief that it was a result in search of an
opinion to support it. Then upon reading the dissents
by Chief Justice Roberts and Justice Thomas I was
forced to conclude the Majority had totally failed to
follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed to
apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following the
Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow the
rule of law and apply over a century of precedent and

App.7a
history, and to accept the fact that no Indian reservations
remain in the State of Oklahoma.2 The result seems
to be some form of “social justice” created out of whole
cloth rather than a continuation of the solid precedents
the Court has established over the last 100 years or
more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
2 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA) in
1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think “we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to Felix
S. Cohen, Handbook of Federal Indian Law (1942), Secretary of
the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.8a
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion as
set out in the dissents. Chief Justice Roberts and Justice
Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the
Indian reservations. Their dissents further demonstrate
that at the time of Oklahoma Statehood in 1907, all
parties accepted the fact that Indian reservations in
the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.9a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses convictions for endangering others while eluding/attempting to elude a police
officer, possession of controlled dangerous substance and
various misdemeanor crimes from the District Court
of Okmulgee County based on the Supreme Court’s
decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
This decision is unquestionably correct as a matter of
stare decisis based on the Indian status of Petitioner
and the occurrence of the crimes on the Creek Reservation. Under McGirt, the State has no jurisdiction to
prosecute Petitioner for the crimes in this case. Instead,
Petitioner must be prosecuted in federal court. I
therefore as a matter of stare decisis fully concur in
today’s decision. Further, I maintain my previously
expressed views on the significance of McGirt, its farreaching impact on the criminal justice system in
Oklahoma and the need for a practical solution by
Congress. See Bosse v. State, 2021 OK CR 3, ___ P.3d
___ (Hudson, J., Concur in Results); Hogner v. State,
2021 OK CR 4, (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25,
2021) (Hudson, J., Specially Concurs) (unpublished).

App.10a

DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, AMENDED FINDINGS
OF FACT AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY STATE OF OKLAHOMA
________________________
SHANNON JAMES KEPLER,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2014-3952
Court of Criminal Appeals Case No. F-2017-1186
Before: Tracy L. PRIDDY, District Judge
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 19, 2020. Katrina Conrad-Legler appeared
on behalf of Appellant, Shannon James Kepler, whose
appearance was waived. Assistant Attorney General
Jennifer Crabb appeared for Appellee. Tulsa County
First Assistant District Attorney Erik M. Grayless
also appeared. An evidentiary hearing was not held

App.11a
pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues to
be determined by this Court.
The Appellant, in Proposition 1 of his Brief-InChief asserted a claim that the District Court lacked
jurisdiction to try him as he is a citizen of the
Muscogee (Creek) Nation and that his crime occurred
within the boundaries of the Creek Reservation.
Appellant’s claim raises two questions: (a) his Indian
status, and (b) whether the crime occurred on the
Creek Reservation. These issues require fact-finding
to be addressed by the District Court per the OCCA
Order Remanding.
I.

Appellant’s Status as an Indian

To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Kepler has some Indian blood,
and (2) is recognized as an Indian by a tribe or the
federal government.1 The Court finds as follows:
Findings of Fact
1. Shannon James Kepler is the named Defendant/Appellant in the above-entitled matter.
2. The parties hereto stipulated and agreed that
the defendant, Shannon James Kepler, has 1/128

1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81(10th Cir.
2001). Generally Goforth v. State, 1982 OK CR 48, ¶6, 644 P.2d
114, 116.

App.12a
Creek blood and was a member of the Muscogee Creek
Nation (Roll Number 31936) at the time of the crime.2
3. Shannon James Kepler has been enrolled as a
citizen of the Muscogee (Creek) Nation since January
1, 1981.3
4. The Muscogee Creek Nation in an Indian
Tribal Entity recognized by the federal government.4
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The Court
adopted the Stipulations of the parties, including the
attached documentation filed on September 25, 2020
and made findings of fact thereon. Shannon James
Kepler has 1/128 Creek Blood. Although the term
“Indian” is not statutorily defined and various terms
such as “sufficient”5, “substantial”6, “significant
percentage of”7 or “some”8 have been used by courts
in an attempt to define the quantity of Indian blood
required to satisfy this inquiry, the OCCA mandate
ordered this Court to determine “whether Kepler had

2 Exhibit 1, Stipulations 2a.
3 Exhibit 1, attachment Muscogee (Creek) Nation Enrollment
Verification.
4 Exhibit 1, Stipulations 2a.
5 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
6 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
7 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
8 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).

App.13a
some Indian blood.”9 Thus, according to the term used
by the OCCA in its Order, this Court concludes
Shannon James Kepler has some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Stipulations including the attached documentation
and made findings of fact thereon. Shannon James
Kepler was enrolled as a citizen of the Muscogee
(Creek) Nation on January 1, 1981 and was recognized
as a citizen of the Muscogee (Creek) Nation at the time
of the offense. The Muscogee (Creek) Nation is an
Indian Tribal Entity recognized by the federal government. Therefore, Shannon James Kepler is recognized
as an Indian by a tribe or the federal government.
Having answered both inquiries in the affirmative,
this Court concludes Shannon James Kepler in an
Indian.
II. Whether the Crime Occurred on the Creek
Reservation
The OCCA further ordered the District Court to
determine whether the crime occurred on the Creek
Reservation, referred to as Indian Country.10 The
Court finds as follows:

9 Order Remanding for Evidentiary Hearing August 19, 2020.
10 McGirt v. Oklahoma, 140 S. Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.14a
Findings of Fact
1. The parties hereto stipulated that the crime
occurred at 202 N. Maybelle Ave., Tulsa, OK 74127.11
2. The parties further stipulated that this address
is within the boundaries of the Muscogee (Creek)
Nation — boundaries established through a series of
treaties between the Muscogee Creek Nation and the
United States Government.12
3. Additionally, these boundaries have been explicitly recognized as establishing a reservation as defined
by 18 U.S.C. § 1151(a), and reaffirmed by the United
States Supreme Court in McGirt v. Oklahoma, 140 S.
Ct. 2452, 207 L.Ed.2d 985 (2020).13
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Stipulations as well as
the attached documentation and made findings of fact
thereon. The crime occurred at a location identified by
a specific address that is within the boundaries of the
Creek Reservation. These boundaries were established
through a series of treaties between the Muscogee
(Creek) Nation and the United States Government, and
are explicitly recognized as establishing a reservation
defined by 18 U.S.C. § 1151(a). Based upon the Supreme
Court’s ruling in McGirt v. Oklahoma, 140 S. Ct. 2452,
207 L.Ed.2d 985 (2020), this Court concludes that the
11 Exhibit 1, Stipulations 1a.
12 Exhibit 1, Stipulations 1a.
13 Exhibit 1, Stipulations 1b and attached correspondence to Ms.
Legler from the Muscogee (Creek) Nation.

App.15a
crime occurred on the Creek Reservation which is Indian
Country.
WHEREFORE, this Court finds that Shannon
James Kepler is an Indian and that the crime for
which he was convicted occurred in Indian Country for
purposes of the General Crimes Act, 18 U.S.C. § 1152
and the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 12th day of November, 2020.
/s/Tracy L. Priddy
District Judge

App.16a
STIPULATIONS
(SEPTEMBER 25, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNTY STATE OF OKLAHOMA
________________________
SHANNON JAMES KEPLER,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2014-3952
Court of Criminal Appeals Case No. F-2017-1186
Before: Tracy L. PRIDDY, District Judge
STIPULATIONS
This case is before the Court pursuant to an Order
Remanding for Evidentiary Hearing from the Oklahoma
Court of Criminal Appeals, dated August 19, 2020. In
that Order, the Court of Criminal Appeals directed
this Court to make findings of fact on two issues: (1)
whether the defendant, Shannon James Kepler, has
“some Indian blood” and “is recognized as an Indian
by a tribe or the federal government” and (2) whether
the crime occurred within the boundaries of the Muscogee Creek Reservation.

App.17a
In response to the two questions this Court has
been directed to answer, the parties have reached the
following stipulations:
1. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 202 N.
Maybelle Ave., Tulsa, OK, 74127. This address
is within the boundaries of the Muscogee
Creek Nation-boundaries established through
a series of treaties between the Muscogee
Creek Nation and the United States Government.

b.

These boundaries have been explicitly recognized as establishing a reservation, as defined
by 18 U.S.C. § 1151(a), and reaffirmed by the
United States Supreme Court in McGirt v.
Oklahoma, U.S., 140 S. Ct. 2452, 207 L.Ed.2d
985 (2020).

2. As to the status of the defendant, the parties
hereby stipulate and agree as follows:
a.

The defendant, Shannon James Kepler, has
1/128 Creek blood and was a member of the
Muscogee Creek Nation (Roll Number 31936)
at the time of the crime. The Muscogee Creek
Tribe is an Indian Tribal Entity recognized
by the federal government.

App.18a
/s/ Katrina Conrad-Legler
Counsel for Defendant/Appellant
/s/Jennifer Crabb
Counsel for Plaintiff/Appellee
/s/ Erik Grayless
Counsel for Plaintiff/Appellee

App.19a
MUSCOGEE (CREEK)
NATION ENROLLMENT VERIFICATION
(SEPTEMBER 16, 2020)
Director
Nathan Wilson
Managers
Allan Colbert Jr.
Andy Proctor
Board Members
Joan Henson
Elizabeth Yahola
Clarence Johnson
LeAnn Nix
Jason Nichols
RE: Name: Shannon James Kepler
Address:
Tulsa OK
Birthdate: 5/20/1960
Enrollment Date: January 1, 1981
Roll Number: 31936
Degree of Creek Blood: 1/128
I hereby certify that Shannon James Kepler, DOB:
5/20/1960 is enrolled with the Muscogee (Creek) Nation.
Enrollment Date: 1/1/1981 Roll Number: 31936, Degree
of Creek Blood: 1/128.
I attest and certify that the above information is
a correct compilation of official records of the Muscogee
(Creek) Nation filed and recorded with the Muscogee
(Creek) Nation Citizenship Office, the public office
responsible for keeping records of enrolled citizens,
and that I am an authorized custodian of said records.

App.20a
Executed this 16th day of September, 2020.
/s/ Nathan Wilson
Director
Muscogee (Creek) Nation
Citizenship Office

App.21a
LETTER FROM MUSCOGEE (CREEK) NATION
(SEPTEMBER 15, 2020)
The Muscogee (Creek) Nation
Soniya McIntosh, Reality Manager
P.O. Box 580, Okmulgee, OK 74447
Phone (918) 732-7713
Fax (918) 758-0745
David Hill
Principal Chief
Del Beaver
Second Chief
Oklahoma Indigent Defense System
Attn: Katrina Conrad-Legler
P.O. Box 926
Norman, OK 73070
RE: 202 N. Maybelle Ave., Tulsa, OK 74127
Dear Ms. Legler:
According to the records of this office, the property
and/or address which is described above is within the
Muscogee (Creek) Nation reservation boundaries.
Should you have any questions concerning this
report, please do not hesitate to call Rachel Langley,
Realty Specialist, at (918) 732-7704.
Sincerely,
/s/ Sonya McIntosh
Realty Manager

App.22a
LEGAL DESCRIPTION
TULSA COUNTY RECORDS (OK)
(SEPTEMBER 15, 2020)
Owner Information
Flatt KG Jr.
9705 S 33rd West Ave
Tulsa, OK 741323813
Property Address
1202 N Maybelle Av
W Tulsa 74127

{ Note: Additional property information such as
maps, photos, assessments, etc. omitted }

App.23a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SHANNON JAMES KEPLER,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-1186, CF 14-3952
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
Appellant Shannon James Kepler was tried by jury
and convicted of First Degree Manslaughter in the
District Court of Tulsa County, Case No. CF-2014-3952.
In accordance with the jury’s recommendation, the
Honorable Sharon K. Holmes sentenced Kepler to fifteen
years imprisonment and a $10,000.00 fine. Kepler must
serve 85% of his sentence before he is eligible for
parole consideration. Kepler appeals his Judgment
and Sentence.

App.24a
In Proposition 1 of his Brief-in-Chief filed January
28, 2019, Kepler claims the District Court lacked jurisdiction to try him. Kepler argues that he is a citizen of
the Muscogee (Creek) Nation and that his crime
occurred within the boundaries of the Creek Reservation.
Kepler, in his direct appeal, relied on jurisdictional
issues addressed in Murphy v. Royal, 875 F.3d 896
(10th Cir. 2017), which was affirmed by the United
States Supreme Court in Sharp v. Murphy, 591 U.S.,
140 S. Ct. 2412 (2020) for the reasons stated in MeGirt
v. Oklahoma, 591 U.S., 140 S. Ct. 2452 (2020).1
Kepler’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the District Court of Tulsa County, for an evidentiary hearing
to be held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Kepler’s presentation of
prima facie evidence as to his legal status as an Indian
and as to the location of the crime in Indian Country,
the burden shifts to the State to prove it has subject
matter jurisdiction.
1 On July 30, 2019, we held Kepler’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following the
decision in McGirt, the State asked to file a supplemental response
to Kepler’s jurisdictional claim and he objected. In light of the
present order, there is no need for an additional response from
the State at this time and that request is DENIED.

App.25a
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Kepler’s status as an Indian. The District
Court must determine whether (1) Kepler has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.26a
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief-in-Chief filed January 28, 2019;
Appellee’s Answer Brief filed May 28, 2019; and
Appellant’s Reply Brief filed June 7, 2019.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.27a
/s/ David B. Lewis
Presiding Judge
RECUSED
Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
John D. Hadden
Clerk

